Audit Report




OIG-11-027
SAFETY AND SOUNDNESS: Failed Bank Review of Woodlands
Bank
November 15, 2010




Office of
Inspector General
Department of the Treasury
 
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GE NE RAL
                                            November 15, 2010

             OIG-11-027

             MEMORANDUM FOR JOHN E. BOWMAN
                            ACTING DIRECTOR
                            OFFICE OF THRIFT SUPERVISION

             FROM:                 Susan L. Barron /s/
                                   Director, Banking Audits

             SUBJECT:              Failed Bank Review of Woodlands Bank


             This memorandum presents the results of our review of the failure of Woodlands
             Bank, (Woodlands), of Bluffton, South Carolina. Woodlands began operations in
             1963 as Gulf Federal Savings and Loan Association (Gulf Federal), a mutual
             savings association, headquartered in Mobile, Alabama. In January 2007,
             Woodlands Financial, LLC acquired Gulf Federal Holdings, Inc., and Gulf Federal.
             Later that year, Gulf Federal changed its name to Woodlands Bank and moved its
             headquarters to Bluffton, South Carolina. Woodlands had a loan production office
             in Florida and seven branch offices in Alabama, South Carolina, Georgia, and North
             Carolina. The Office of Thrift Supervision (OTS) closed Woodlands and appointed
             the Federal Deposit Insurance Corporation (FDIC) as receiver on July 16, 2010. As
             of March 31, 2010, the thrift had $376.2 million in total assets. FDIC estimated
             that the loss to the Deposit Insurance Fund is $115.0 million.

             Because the loss to the Deposit Insurance Fund is less than $200 million, as set
             forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
             review of the failure of Woodlands that was limited to (1) ascertaining the grounds
             identified by OTS for appointing the FDIC as receiver and (2) determining whether
             any unusual circumstances exist that might warrant a more in-depth review of the
             loss. In performing our review we (1) examined documentation related to the
             appointment of FDIC as receiver, (2) reviewed OTS reports of examination, and
             (3) interviewed OTS examination personnel.

             We conducted this performance audit during August and September 2010 in
             accordance with generally accepted government auditing standards. Those
             standards require that we plan and perform the audit to obtain sufficient,
             appropriate evidence to provide a reasonable basis for our findings and conclusions
             based on our audit objectives. We believe that the evidence obtained provides a
             reasonable basis for our findings and conclusions based on our audit objectives.
OIG-11-027
Page 2

Causes of Woodlands’ Failure
OTS appointed FDIC as receiver based on the following grounds: (1) the bank was in
an unsafe and unsound condition to transact business, (2) the bank, by resolution of
its board of directors, had consented to the appointment of a receiver, and (3) the
bank had substantially insufficient capital.

The primary causes of Woodlands’ failure were its (1) aggressive growth strategy,
(2) excessive concentrations in higher-risk loans consisting of commercial real estate
and construction and development loans, (3) ineffective management and inadequate
board oversight, and (4) insufficient capital relative to the risk level of its loans. These
conditions were exacerbated by the downturn in real estate values in its primary
lending area, the southeast region of the United States. The board of directors did not
provide sound policies or effective management over critical policies, lending, and
staffing functions. For example, the thrift’s poor credit underwriting allowed a
significant volume of interest only loans and a liberal renewal and extension policy
allowed extension of interest only payments until maturity. These factors resulted in
increases in its problem assets and loan losses. In turn, these loan losses significantly
diminished earnings and capital and, ultimately, led to Woodlands’ failure.

Conclusion
Based on our review of the causes of Woodlands’ failure and the grounds identified
by OTS for appointing FDIC as receiver, we determined that there were no unusual
circumstances surrounding the thrift’s failure or the supervision exercised by OTS.
Accordingly, we have determined that a more in-depth review of the thrift’s failure
by our office is not warranted.

We provided a draft of this memorandum to OTS management for comment. In its
response, OTS stated that the primary causes of Woodlands Bank’s failure
summarized in this memorandum are consistent with the information contained in
its reports of examinations and documents in support of the grounds for
receivership. The response is provided as Attachment 1. A list of the recipients of
this memorandum is provided as Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-5776 or Jai
Mathai, Audit Manager, at (202) 927-0356.

Attachments
         OIG11-027

       Attachment 1
Management Response
                                                   OIG-11-027

                                                  Attachment 2
                                                    Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Evaluations
   Office of Accounting and Internal Control

Office of Thrift Supervision

   Acting Director
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
